No.

20-5859
IN THE

_

SUPREME COURT OF THE UNITED STATES

Supremo Court, u.s.

filed

SEP 1.4 2020
K<lv i /\__ ke__________ — PETITIONER
(Your Name)

OFFICE OF THE CLERK

VS.
UTckVi fWri of PacAovi$- RESPONDENT(S)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
^ Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
TT\-g

CfeiwT pF

oP UTaAi

□ Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
□ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
$ Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
|£J The appointment was made under the “following provision of law:
UTA.ii CoAe.

or

l^fa copy of the order of appointment is appended. nT P

(Signatu *e) SEP 3 0 2020
•FFICE OF THE O.ERK
SUPREME COURTuls

t'

V

✓

FILED
UTAH APPELLATE COURTS

JAN - 3 2018
IN THE SUPREME COURT OF THE STATE OF UTAH

—00O00—

Kevin Blanke,
Petitioner,
Case No. 20160766-SC

v.
Utah Board of Pardons,
Respondents.

ORDER
On December 19,2016, the Court provisionally granted Petitioner's
petition for certiorari pending its decision in 2017 UT 89, Neese v. Board of
Pardons, which was issued on December 14,2017. The Court now lifts the
provisional qualifier to its grant of the petition and remands to the district court
for appointment of pro bono counsel pursuant to Utah Code 78B-9-109,
provided Mr. Blanke qualifies as an indigent litigant. Upon notification that
counsel has been appointed, the Court intends to,conduct a scheduling
conference prior to specifying the issues for review and establishing the briefing
schedule. The Clerk of Court will notify the parties of the date and time for that
conference.
FOR THE COURT:

Date

Thomas R. Lee
Associate Chief Justice

